                                                       National Railroad Passenger Corporation
                                                       Office of Inspector General
                                                       10 G Street, N.E.
                                                       Washington, DC 20002



.
               Amtrak Employee Suspended for Claiming Time Not Worked
                                Case Number 09-036
                                 September 1, 2010

A confidential source alleged that a Southampton Maintenance Facility employee was being paid
for overtime not worked. Through review of company records and interviews, OIG substantiated
that on nine occasions when the employee claimed to be at work at the facility, the employee was
elsewhere in the Boston area. The employee was found to have violated the Trust and Honesty
section of Amtrak’s Standards of Excellence and was assessed discipline of a 15-day suspension,
return of the company-issued laptop and cellular telephone, and removal from special
assignment.
